OIG Investigative Reports, Two Plead Guilty In Federal El Paso Corruption Investigation
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
U.S. Department of Justice
United States Attorney Johnny Sutton,
Western District of Texas
FOR IMMEDIATE RELEASE:
February 18, 2009
Shana Jones, Special Assistant
Daryl Fields, Public Information Officer
PHONE: (210) 384-7440
Two Plead Guilty in Federal El Paso Corruption Investigation
Former El Paso I.S.D. trustee Sal Mena and Michigan businessman Gary Lange admit roles in fraud and deprivation of honest services scheme
DALLAS — Following more than three weeks of trial, a jury deliberated one day and found Ruben Bohuchot and Frankie Wong guilty on all counts of a federal indictment involving offenses related to their operation of a bribery and money laundering scheme involving Dallas Independent School District (DISD) technology contracts, announced U.S. Attorney Richard B. Roper of the Northern District of Texas. Sentencing is set for October 20, 2008.
United States Attorney Johnny Sutton announced that in El Paso this morning, Salvador Marcos Mena, Jr., aka Sal Mena, pleaded guilty to one count of conspiracy to commit mail fraud and deprivation of the right to honest services and one count of conspiracy to commit wire fraud and deprivation of the right to honest services. As a result, Mena faces up to twenty years in federal prison and a maximum $250,000 fine per charge. No sentencing date has been scheduled.
According to the indictment filed in this case, Mena, during the time he was an elected Trustee of the El Paso Independent School District (EPISD), conspired with others to devise a scheme to defraud the EPISD and the citizens of El Paso living in the EPISD, of the right to his honest services performed in his capacity as an elected EPISD Trustee, in the affairs of the EPISD. It further alleges that the defendant set up a sham consulting contract with a vendor whereby he received income, but provided no consulting services. Additionally, in exchange for his vote, support and influence for vendors, he instructed vendors seeking to do business with EPISD to make contributions to his election and re-election campaigns. The Indictment also alleged Mena accepted cash bribes in exchange for his vote and official influence.
Also appearing this morning before U.S. District Judge Frank Montalvo, 56-year-old Gary Lange, of Okimos, Michigan, pleaded guilty to a one count Information charging him with conspiracy to commit mail fraud and deprivation of the right to honest services. By pleading guilty, Lange admitted to participating with Mena in a scheme to defraud the EPISD and the citizens of El Paso by paying Mena a $5,000 bribe as well as making other political contributions in exchange for securing a multi-million dollar vendor contract. As a result, Lange, who is on a $10,000 personal recognizance bond, faces up to twenty years in federal prison and a maximum $250,000 fine. No sentencing date has been scheduled.
This is an ongoing investigation of the Federal Bureau of Investigation and is being prosecuted for the government by Assistant United States Attorney Debra Kanof.
Top
Printable view
Share this page
Last Modified: 02/24/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov